HHS/OIG, Audit -"Audit of Hawaii's Medicaid Expenditures for Nursing Facility Services
for the Period July 1, 2003, Through June 30, 2004,"(A-09-05-00058)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Hawaii's Medicaid Expenditures for
Nursing Facility Services for the Period July 1, 2003, Through June 30, 2004," (A-09-05-00058)
February 17, 2006
Complete
Text of Report is available in PDF format (435 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Hawaiis reported Medicaid expenditures for services
provided to beneficiaries in nursing facilities complied with Federal and State requirements
for the period July 1, 2003, through June 30, 2004.  In general, Hawaiis reported Medicaid
expenditures for services provided to beneficiaries in nursing facilities complied with Federal
and State requirements.  However, Hawaii overpaid nursing facilities for a small number
of ancillary services and could not support the reasonableness of its negotiated prospective
payment system (PPS) rates for subacute care.  We recommended that (1) Hawaii refund
$9,532 to the Federal Government, representing the Federal share of the overpayments related
to ancillary services, and (2) enforce the Hawaii Administrative Rules to require nursing
facilities to separately account for subacute care costs on their cost reports so that Hawaii
can ensure that its negotiated PPS rates are reasonable.  Hawaii officials agreed with
our findings and recommendations.